PI-

t \\

c-1

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA

ORIGINAL
Supreme Court, U.S.
FILED

JUL 0 2 2021
OFFICE OF THE CLERK

APPEAL FROM THE ELEVENTH CIRCUIT COURT OF APPEALS
UNITED STATES OF AMERCIA,
Plaintiff-Appellee,
vs.
EVERETT JEROME TRIPODIS
Defendant-Appellant.

ELEVENTH CIRCUIT COURT OF APPEALS
CASE NO. 20-14724-D
UNITED STATES DISTRICT COURT
CASE NO. 1:18-CR-00240-TWT

PETITION FOR CERTORARI AND REVIEW

EVERETT JEROME TRIPODIS
RADDF
P.O. BOX 730
LOVEJOY, GEORGIA 30325
PETITIONER, PRO SE

i

QUESTIONS PRESENTED
1. Whether a Court of Appeals was required to answer or resolve the legal
questions presented to it, or if it may instead “overlook” or “evade” the
contentions presented to it on appeal?
2. Whether the Bail Reform Act permits pretrial detention solely on
dangerousness grounds where the accused is not charged with a
dangerous offense under 18 U.S.C.S. 3142(f)(1)?
3. Whether excessively prolonged pretrial detention of approximately three
(3) years for a non-complex stolen car case violates due process?

2

United States District Court for the Northern District of Georgia
U.S. Magistrate Judge Russell Vinyard
Honorable Judge Thomas W. Thrash, presiding Judge
AUSA Phyllis Clerk
AUSA Paul Jones
AUSA Rebeca Ojeda
Corporate Disclosure Statement
Pursuant to Rule 29.6, No publicly traded company or corporation has an interest
in the outcome of the case or appeal.

List of All Proceedings Below and Orders Entered in this Case
1. Detention Hearing by U.S. Magistrate, N.D. Ga.: Case No. l:18-cr-0240,
Docket Ent. 36, July 13,2018. The Order of Detention, Docket Entry 37.
2. Motion for Reconsideration of Detention Order, U.S. Magistrate: Case
No. l:18-cr-0240, Docket Ent. 272, September 29, 2020. Reconsideration
denied October 22, 2020, Docket Entry 286.
3. Motion to Revoke Detention Order, U.S. District Court: Case No. 1:18cr-0240, Docket Ent. 287, October 23, 2020.

3

4. Denial of Motion to Revoke Detention Order, U.S. District Court: Case
No. l:18-cr-0240, Docket Ent. 286, October 22, 2020. Hearing held on
November 12, 2020; motion denied on December 17, 2020, Docket Ent. 303.
5. Motion Appealing District Court’s Detention Order, Court of Appeals,
Eleventh Circuit: Appeal No. 20-14724, February 17, 2021. Motion Denied
on March 25, 2021.
6. United States Court of Appeals, Eleventh Circuit (Reconsideration):
Appeal No. 20-14724-D, April 2, 2021. Reconsideration Denied on April 15,
2021.

THIS COURT’S JURISDICTION
Petitioner seeks review of an April 15, 2021, Final Judgment and Order of a
United States Court of Appeals, having jurisdiction under FRAP 4(b), stemming
from a March 25, 2021, Final Judgment and Order of a United States District
Court. This Petition is filed under this Court’s Rule 11, and this Court has
Jurisdiction pursuant to 28 U.S.C.S. 1254. Any Notifications required by Rule
29.4(b) and/or (c) have been made.

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
Bail Reform Act, 18 U.S.C.S. 3142.
Due Process Clause of the United States Constitution.

4

Statutory Right to Appeal (FRAP 3, and FRAP 4(b)).
Appellate Court’s Statutory (FRAP 3, FRAP 4) and Constitutional Duty to Review
All Matters Properly Before it.
STATEMENT OF THE CASE
On June 26, 2018, Petitioner was indicted/charged with one count of
Conspiring to Violate Federal Laws (18 U.S.C. §371), fifteen counts of Mail and
Wire Fraud (18 U.S.C. §1341, and §1343) and one count of Altering a YIN (18
U.S.C. §511), related to an alleged car-theft scheme involving altered VINs and
duplicate title certificates.
On July 10, 2018, Petitioner was arrested and entered a plea of not guilty.
The government filed a detention motion. [Doc. 25] Although the government’s
motion stated he posed a risk of flight or nonappearance and obstruction of justice,
citing to 18 U.S.C. §3142(f) and (e), it did not expressly indicate whether it was
moving for detention under §3142(f)(1), or §3142(f)(2)(A), or §3142(f)(2)(B).
[Doc.25]
On July 13, 2018, the detention hearing was held. The government presented
a wholly different argument than presented in its detention motion, to wit: that
Petitioner posed a “danger” (rather than that he posed a serious risk of flight or
nonappearance and obstruction of justice).
The magistrate stated that Petitioner was not a serious flight risk, but granted
the detention motion based on “dangerousness.” [Doc. 37-2] It’s order mistakenly

5

identified this case as qualifying for detention under §3142(f)(1), [Doc. 37-1] and
explained that detention was based in part on its belief (a mistaken one) that
Petitioner had previously been convicted of a number of dangerous and serious
crimes—including aggravated assault and weapons charges. [Doc. 37-3]
At that time, Petitioner had not yet been provided discovery. For the next 3
years, the government has been providing additional discovery on a rolling basis.
Some discovery is still outstanding. Very recently the government provided a
sizeable amount of discovery material that should have been provided at
arraignment in 2018.
On May 2, 2019, Petitioner motioned to dismiss the indictment for
multiplicity [Doc. 104] and, inter alia, for failing to state an offense. [Doc. 97] He
also filed a motion to suppress the search of his Emory University apartment [Doc.
99] and a motor vehicle [Doc. 98]; a Motion for Bill of Particulars [Doc. 103]; and
a pro se motion to compel discovery materials.
On July 31, 2019, an evidentiary hearing was held [Doc. 155], and the
suppression motion was found MOOT since the government stated it would not
use anything seized from the residence. It also conceded to dismissal of other
counts. [Doc. 161] The Magistrate ordered a Bill of Particulars [Doc. 103] that has
never been provided.

6

On February 27, 2020, the U.S. District Court ruled the indictment fatally
defective and dismissed the remaining thirteen counts of mail and wire fraud.
On August 11, 2020, a superseding indictment was issued which charged
one count of Conspiracy to Alter VINs and Transport (and Receive) Stolen
Vehicles in violation of 18 U.S.C §371; three counts of Transporting Stolen
Vehicles in violation of 18 U.S.C. §2312; and one count of VIN altering in
violation of 18 U.S.C. §511. [Doc. 242]
On October 4, 2020, Petitioner filed a Motion for Reconsideration of Bond
[Doc. 272] pursuant to 18 U.S.C. §3142(f)(2)(B) and §3142(i) alleging factual and
legal errors in the Detention Order, and a violation of Due Process. The
government opposed it. [Doc. 284] On October 22, 2020, the U.S. Magistrate
denied the motion, ruling there were no grounds to reopen the hearing and that 26
months pretrial detention did not violate due process. [Doc. 286]
Petitioner motioned the district court to revoke the magistrate’s order; a
hearing was held on November 12, 2020. Petitioner was ordered detained based
solely on alleged “dangerousness.” The court believed there was no Due Process
violation at that time.
On February 17, 2021, Petitioner appealed to the Eleventh Circuit, having
jurisdiction under 18 U.S.C.S. 3145. On March 25, 2021, that Court denied his
appeal without ever addressing the legal questions presented. The Appellate Court

7

thus departed from the accepted and usual course of judicial proceedings by not
addressing each of Petitioner’s contention, so on April 2, 2021, he filed a Motion
for Reconsideration pinpointing that the Appellate Court had “overlooked” the
legal questions presented in the appeal. The Eleventh Circuit again overlooked (or
evaded) the questions presented to it; the Motion for Reconsideration was denied
on April 15, 2021. A lower court cannot overlook an appeal or the questions
presented in it.
On April 21, 2021, Petitioner timely directed his attorney to seek rehearing
and en banc review, and certiorari to the Supreme Court, but counsel failed to do
so. He is still incarcerated, and proceeds to this Honorable Court pro se.
APPENDIX OF OPINIONS BELOW
U.S. Magistrate’s Opinion, findings of fact and conclusion of law: The
Magistrate Court parted with the decisions of five Courts of Appeals that have
decided the issue, ruling that a defendant can be detained solely on
“dangerousness” even though he is not charged with an offense listed in 18
U.S.C.S. 3142(f)(1). The Court also found that the four (4) factor “test” weighs
against a Due Process violation in this case.

U.S. District Court’s Opinion, findings of fact and conclusion of law: The
District Court ruled that “dangerousness is a factor that can be considered” when

8

evaluating a bail decision, and that “there are no conditions that can assure the
safety of the community if [Petitioner] was released.” Without evaluating any facts
or weighing the four (4) factors, the Court then ruled that “under the unique
circumstances we find ourselves in now, that there is no due process violation by
continued detention of Defendant under these conditions.”

U.S. Court of Appeals’ Opinion, finding of fact and conclusion of law: The
Appellate Court failed to answer any of Petitioner’s appellate questions and
contentions. Instead, it ruled that the district court’s determination that “no
conditions of release will reasonably assure the safety of the community” was not
erroneous. This was not the question presented on appeal, however, and the Court
failed to evaluate the parameters of the Bail Reform Act or the Due Process
question.

OTHER RELEVANT MATERIAL: EXHIBITS ATTACHED HERETO
To ensure accuracy, brevity, clarity, and an adequate understanding of the
points requiring consideration, prior motions/petitions and lower court orders are
attached hereto as Exhibits.

CERTORARI AND REVIEW OF ERRORS

9

The errors asserted do not consist of erroneous factual findings or the
misapplication of a properly stated rule of law. Rather, they involves a compelling
issue: The complete failure by the lower court to exercise its mandatory
jurisdiction and duty to answer the questions presented to it. The Eleventh Circuit
intentionally and purposely “overlooked” legal questions presented to it on appeal,
and in so doing, it departed from the accepted and usual course of judicial
proceedings. This calls for an exercise of this Court’s supervisory power.
1. Departure from the accepted and usual course of judicial
proceedings.
Petitioner had a right to appeal his legal questions to the Eleventh Circuit,
and it had an obligation to answer those questions. This is commonsensical as any
other position renders the right to “appellate review” meaningless.
This Honorable Court long-ago established that all issues presented to a
lower court must be addressed and resolved by that court. In fact, there is a “rule”
requiring an Appellate Court to “discharge its duty” by evaluating the merits of
each question presented to it. William Cramp & Sons Ship & Engine Co. v. Inti
Curtis Marine Turbine Co., 228 U.S. 645 (1913).
In fact, this Court remands a case back to the Court of Appeals whenever it
(the lower court) fails to decide the merits. See Sprint Communications, Inc., v.
Jacobs, 571 U.S. 69, 72, 134 S. Ct. 584, 588 (2013) (remanding to the court of

10

2. The “unaddressed” and “overlooked” issues presented below were
important federal legal questions.
A question of individual freedom and liberty is of exceptional importance.
The question of whether courts have—for more than 30 years—been detaining
defendants (who are presumed innocent) beyond the terms of the Bail Reform Act
is likewise of exceptional importance since time spent in jail is lost forever, and
any statutory transgressions by lower courts cannot be overlooked.
Petitioner presented three (3) important questions to the Eleventh Circuit,
and they were questions of law requiring de novo review.1 Unfortunately, that
Court failed to address any of the important legal questions—including matters of
first impression, to wit:
(1) Whether the Bail Reform Act permits detention solely on the basis of
“dangerousness” absent Petitioner being charged with one of the “dangerous”
offenses listed in 18 U.S.C.S. 3142(f)(1);
(2) Whether excessive pretrial detention of 31 months violated Due Process;
(3) Whether the district court applied a higher standard than required by the
Bail Reform Act (the “Act”). See Appeal to the Eleventh Circuit, Exhibit A,
attached.

See United States v. Hurtado, 779 F.2d 910 (11th Cir. 1985) (legal questions are reviewed de
novo in the Eleventh Circuit).

12

appeals because, “In the main, federal courts are obliged to decide cases within the
scope of federal jurisdiction.”); Wetzel v. Lambert, 565 U.S. 520, 525-26, 132 S.
Ct. 1195 (2012) (judgment vacated and remanded since each ground supporting the
lower court decision was not examined by the Third Circuit); Brown v. Fletcher,
237 U.S. 583, 587-88 (1915) (Appellate Courts have a duty to consider and dispose
of the case and all issues before it); Beer v. United States,’564 U.S. 1050, 131 S.
Ct. 2865 (2011) (remanding for reconsideration for unaddressed preclusion claim);
Youngblood v. West Virginia, 547 U.S. 867, 126 S. Ct. 2188 (2006) (per curiam)
(remanding for consideration of unaddressed claim under Brady)', Tunstall v.
Brotherhood of Locomotive Firemen & Enginemen, 323 U.S. 210, 65 S. Ct. 235,
89 L. Ed. 187 (Where questions were raised in District Court and in Court of
Appeals which had not been considered by Circuit Court of Appeals, Supreme
Court would remand case to that court for further proceedings).
Importantly, where a Court of Appeals failed to consider or decide one of
defendant’s contentions relating to a due process question, this Court has granted
certiorari. Degraffenreid v. McKellar, 494 U.S. 1071, 1073, 108 L. Ed. 2d. 794
(1990). Here, the Eleventh Circuit wholly failed to address the questions presented
on appeal, including a due process question. This Honorable Court to likewise
grant certiorari.

li

the issue has already ruled that a district court cannot detain a defendant where
none of the six prerequisite grounds for triggering a detention hearing exist, and
where the alleged offense did not involve any of the several 18 U.S.C.S. 3142(f)(1)
factors. No Court of Appeals has ever held otherwise; thus, the Eleventh Circuit
has entered a decision in conflict with the decision of other United States Courts of
Appeal on the same important matter.
Additionally, the Eleventh Circuit overlooked a significant Constitutional
question presented on appeal. Petitioner plainly asked the Eleventh Circuit to
determine whether his excessively prolonged pretrial detention (approximately 31
months at that time) violated Due Process. According to this Court, “excessively
prolonged” pretrial detention may violate due process, United States v. Salerno,
481 U.S. 739, 747 & n.4 (1987), and the Eleventh Circuit has already accepted the
Second Circuit's reasoning that “at some point and under some circumstances, the
duration of pretrial detention becomes unconstitutional.” United States v.
Quartermaine, 913 F.2d 910, 917 (11th Cir. 1990) (quoting United States v.
Gonzalez-Claudio, 806 F.2d 334, 339 (2d Cir. 1986)).
Petitioner alleged the duration of his pretrial detention is unconstitutional,
but the Eleventh Circuit wholly failed to address it.

Statutory considerations

cannot override the protections of the Due Process Clause, and “the due process
limit on the duration of preventive detention requires assessment on a case-by-case

14

Instead of answering legal questions, the lower court answered a factual
question never even presented to it: Whether the district court erred when
determining “no conditions of release will reasonably assure the safety of the
community.” See Order Denying Appeal, Exhibit B, attached.
Petitioner filed a Motion for Reconsideration pinpointing that the Eleventh
Circuit overlooked (or simply evaded) questions of law and constitutionality, and
“failed to address the significant issues [he] raised.” See Motion for
Reconsideration, Exhibit C, attached. However, rather than discharge its duty and
answer the legal questions presented to it, the Eleventh Circuit again “overlooked”
(evaded) the questions and left the appeal wholly unaddressed. It then denied
reconsideration.2
Notably, the Eleventh Circuit’s factual determination of “dangerousness”
was irrelevant to the legal questions presented by Petitioner because he argues the
Bail Reform Act does not, as a matter of law, permit detention since he was not
charged with any of the “dangerous” offenses listed in the Act—regardless of
whether facts suggest “dangerousness. ” Every Circuit Court of Appeals to address

2 It is significant that the questions presented to the Eleventh Circuit were questions
of law because such questions require a different standard of review than the
factual question evaluated by the lower court. The Eleventh Circuit’s factual
determination that Petitioner poses a “danger” to the community was reviewed
under the “clearly erroneous” standard, while the legal questions actually presented
required “de novo” review. United States v. Hurtado, 779 F.2d 910 (11th Cir.
1985).

13

Degrajfenreid v. McKellar, supra. Therefore, this Honorable Court should exercise
it supervisory authority and remand this case back to the Eleventh Circuit.

3. Questions of Exceptional Importance and the Conflict with other
Circuit Court Decisions.
A case “presents a question of exceptional importance if it involves an issue
on which the panel decision conflicts with the authoritative decisions of other
United States Courts of Appeals that have addressed the issue.” FRAP 35. As
shown below, the Panel’s decision indeed conflicts with decisions of several other
circuit courts of appeals so this Petition should be granted.
a. Conflict with Decisions on The Bail Reform Act.
At least five (5) circuit courts of appeals have unanimously found that a
defendant cannot be detained solely on the basis of “dangerousness” where he is
not charged with any of the offenses listed in 18 U.S.C.S. 3142(f)(1). The Bail
Reform Act carefully limits the circumstances under which detention may be
sought to the most serious of crimes. United States v. Salerno, 481 U.S. 739, 747
(1987).
The Eleventh Circuit’s decision conflicts with Congress’s language and the
Supreme Court’s narrow interpretation of the Act. Circuit Courts weighing in on
this issue have all ruled that the "dangerousness" prong for pretrial detention under
section §3142(e) only applies to cases that arise under section §3142(f)(1). See

16

basis, since due process does not necessarily set a bright line limit for length of
pretrial confinement.” Gonzalez-Claudio, 806 F.2d at 340. (internal quotations
omitted)
Courts evaluating such claims routinely weigh the balance between the
government’s regulatory purposes for detention against four factors: (1) the length
of the detention (2) the extent of the government's responsibility for the delay; (3)
the gravity of the charges; and (4) the strength of the evidence upon which
detention was based. Quartermaine, 913 F.2d at 918. (citing United States v.
Gonzalez-Claudio, 806 F.2d 334 (2d Cir. 1986)).
However, the Eleventh Circuit completely failed to conduct any due process
assessment whatsoever—and wholly disregarded all of the legal questions
presented to it. It also failed to make findings with regard to the four “balancing
factors” to be used when evaluating due process claims.
The panel decision conflicts with a number of decisions of the United States
Supreme Court holding that ah issues presented to a lower court must be addressed
and resolved. And as established above, an Appellate Court must “discharge its
duty” by evaluating the merits of each question presented to it or else the case will
be remanded. See Sprint Communications, Inc., v. Jacobs, supra.; William Cramp
& Sons Ship & Engine Co., supra; Brown v. Fletcher, supra.; Beer v. United States,
supra.; Youngblood v. West Virginia, supra.; Wetzel v. Lambert, supra.; and

15

The Second Circuit reached a similar conclusion in Friedman, where a
defendant was charged with child pornography offenses.4 The court detained the
defendant based upon "the evidence of Friedman's sexual abuse of children, his
collection of pornography, the seriousness of his federal charges and the erosion of
support for him in the community." Id. The court of appeals ordered bail and held:
“[T]he Bail Reform Act does not permit detention on the basis of
dangerousness in the absence of risk of flight, obstruction of justice or an
indictment for the offenses enumerated [in 18 U.S.C. § 3142(f)(1)].” Id. at
49. As the government conceded that the defendant was not charged with
any of the offenses enumerated in § 3142(f)(1), the district court's detention
based upon “dangerousness” was erroneous. Id.

Similarly in Ploof a defendant charged with fraud-related offenses was
ordered detained pending trial and he appealed. The First Circuit ordered bail and
held:
“[WJhere detention is based on dangerousness grounds, it can only be
ordered in cases involving one of the circumstances set forth in
§3142(f)(1)...§3142(f) does not authorize a detention hearing whenever the
government thinks detention would be desirable, but rather limits such
hearings to [specified] instances....To conclude otherwise would be to
ignore the statement in the legislative history that the 'circumstances for
invoking a detention hearing in effect serve to limit the types of cases in
which detention may be ordered prior to trial...and to authorize detention in
a broad range of circumstances that we do not believe Congress envisioned."
Id. at 10.

4 At the time of prosecution, paragraph (E) which now applies to child pornography offenses was
not in 18 U.S.C. § 3142(f)(1). That subsection was added in 2006 by Public Law 109-248, Title
II, § 216, July 27, 2006,120 Stat 617 (Adam Walsh Act).

18

United States v. Himler, 797 F.2d 156, 160 (3d Cir. 1986); United States v. Ploof
851 F.2d 7, 10 (1st Cir. 1988); United States v. Friedman, 837 F.2d 48, 49 (2d Cir.
1988); United States v. Byrd, 969 F.2d 106, 109 (5th Cir. 1992); and United States
v. Twine, 344 F.3d 987, 988 (9th Cir,2003).
The Third Circuit in Himler considered the application of §3142(f) in a case
involving false identifications. The district court found that, based upon a number
of factors, the defendant's release on conditions would not assure the safety of the
community. Id. at 158. The defendant appealed, arguing the Act did not authorize
his detention based on a finding of a danger to the community. Id. The Third
Circuit agreed3 and held:
“[T]he statute does not authorize the detention of the defendant based on
danger to the community from the likelihood that he will if released commit
another offense involving false identification. Any danger which he may
present to the community may be considered only in setting conditions of
release. He may be detained only if the record supports a finding that he
presents a serious flight risk.” Himler, 797 F.2d at 160.

3 The court found support in the legislative history of the Act which makes clear that (to
minimize the possibility of constitutional challenge) the drafters aimed toward a narrowlydrafted statute with the pretrial detention provision addressed to danger from “a small but
identifiable group of particularly dangerous defendants." Id. at 160 (quoting S. Rep No. 225,
98th Cong., 2d Session 6-7 (1983), U.S. Code Cong. & Admin News 1984, pp. 3182, 3189).

17

to limit the types of cases in which detention may be ordered prior to trial.” S. Rep.
No. 98-225, at 20, reprinted in 1984 U.S. Code & Admin. News 3182, 3203.
Notably, the Fifth Circuit’s holding in Byrd—which involved a prosecution
for distribution and possession of child pomography-

:ontributed to the 2003

legislative amendments to the Act through which various crimes involving
children, like child pornography cases, were to be categorized as “crimes of
violence” such that the presumption of dangerousness did apply under §3142(f)(1).
This is very significant because Congress clearly understood the state of the law
prior to this amendment that limited the “dangerousness” prong to §3142(f)(1)
cases, and extended the law only in a very limited, specific way.5 The Congress
could have, of course, provided that “dangerousness” could be extended to a
broader array of cases, but the fact that it chose not to do so reaffirms the validity
of the Fifth Circuit’s holding in Byrd. Conroy v. Aniskoff, 507 U.S. 511, 516, 113
S. Ct. 1562 & n. 10 (1993) (holding that there is a presumption that Congress is
aware of the relevant case law). See also Chisom v. Roemer, 501 U.S. 380, 396,
111 S. Ct. 2354 (1991) (holding that if Congress had an intent to deviate from an
established legal rule, "Congress would have made it explicit in the statute"), cited
in Harris v. Garner, 216 F.3d 970, 997 (11th Cir. 2000). As this Court has noted
5 In fact, in 2004 Congress again amended subsections (e), (f)(1) and (g)(1), to add certain crimes
of terrorism to the for which a rebuttable presumption of dangerousness arises. Intelligence
Reform and Terrorism Prevention Act of2004, Pub. L. No. 108-458, 6952, 118 Stat. 3774 (Dec.
17, 2004). Had Congress wished to address the holdings of these multiple Courts it could (and
would) have done so when amending the Act in these other ways.

20

As yet another example, the Ninth Circuit in Twine dealt with a defendant
indicted for being a felon in possession of a firearm. The district court held that
felon in possession of a firearm was a “crime of violence” and ordered him
detained pending trial on the sole basis of a finding of dangerousness to the
community. The defendant appealed; the Ninth Circuit ordered him released on
bail and held:
“We are not persuaded that the Bail Reform Act authorizes pretrial detention
without bail based solely on a finding of dangerousness. This interpretation
of the Act would render meaningless 18 U.S.C. §3142(f)(1) and (2).” Id.
Finally, the Fifth Circuit in Byrd explained that detention cannot be based on
“dangerousness” alone since a hearing can be held only if one of the six
circumstances listed in (f)(1) and (2) is present and detention can be ordered only
after a hearing is held pursuant to §3142(f). Noting that the Bail Reform Act favors
non-detention, the Court held:
“It is not surprising that detention can be ordered only after a hearing; due
process requires as much. What may be surprising is the conclusion that
even after a hearing, detention can be ordered only in certain designated and
limited circumstances, irrespective of whether the defendant's release may
jeopardize public safety. Nevertheless, we find ourselves in agreement with
the First and Third Circuits: a defendant's threat to the safety of other
persons or to the community, standing alone, will not justify pre-trial
detention.” Id. at 109-10.
This Eleventh Circuit’s decision also conflicts with the legislative history of
the Act which indicates the discrete predicate categories found in §3142(f) “serve

19

before, “in the long run, experience teaches that strict adherence to the procedural
requirements specified by the legislature is the best guarantee of evenhanded
administration of the law.” Mohasco Corp. v Silver, 447 US 807, 826, 65 L Ed 2d
532,100 SCt 2486(1980).
That the Eleventh Circuit would overlook or evade this issue is perplexing
since it had consistently applied the Bail statute narrowly, limited to its express
provisions and consistent with the applicable legislative history. See, e.g., United
States v. King, 849 F.2d 485, 487 (11th Cir. 1988) (quoting definition of
dangerousness in the Senate Report to the statute, S. Rep. No. 98-225, 1984 U.S.
Code Cong. & Admin. News at 3195-96); United States v. Johnson, 399 F.3d
1297, 1301-02 (11th Cir. 2005) (rejecting Government's expansive definition of
“crime of violence” under the statute and holding that charge of possession of
firearm by felon does not constitute “crime of violence” to establish prerequisite
for detention under section 3143(a)(2), following majority rule in other circuits);
United States v. Meister, 744 F.3d 1236, 1239 (11th Cir. 2013) (following the
“unanimous agreement of our sister circuits that have considered the [bail] issue.”)
b. Conflict with Decisions on Excessive Detention and Due Process.
As noted above, the Eleventh Circuit accepted the Second Circuit's
reasoning regarding the unconstitutionality of excessively prolonged pretrial
detention, Quartermaine, 913 F.2d at 917, but it failed to address the Due Process

21

issue here and failed to make findings with regard to the four due process factors
used evaluate Due Process questions.
Petitioner has been in pretrial detention for approximately three (3) years
without bond, which is a prolonged and excessive amount of time to spend in
pretrial detention for a “stolen car” case. The Eleventh Circuit has stated that 8 to
10 months of pretrial detention, without more, does not violate due process.
Quartermaine, 913 F.2d at 916-18, but Mr. Tripodis has been in pretrial detention
for nearly four times longer than in Quartermaine and no Court of Appeals has
upheld pretrial detention of this length—especially for a “stolen car” case. Rather,
Courts routinely find this extent of pretrial detention to violate due process. See
United States v. Zannino, 798 F.2d 552, 558 (1st Cir. 1986) (16 month delay in
most cases violates Due Process); United States v. Hare, 873 F. 2d 796, 800-801
(5th Cir. 1989) (continued detention after 10 months violated due process); United
States v. Ojeda Rios, 846 F.2d 167 (2d Cir. 1988) (per curiam) (ordering the
release after 32 months because “due process can[not] tolerate any further pretrial
detention in this case"); Gonzales Claudio, 806 F.2d 334, 341-43 (2d Cir. 1986) (26
months of pretrial detention unconstitutional). The Eleventh Circuits decision to
deny relief after such prolonged pretrial detention conflicts with decisions of other
Court of Appeals; this Honorable Court should intervene.

22

WHEREFORE, Petitioner Prays this Honorable Court will GRANT him
the requested relief through certiorari or remand the ease back to the Eleventh
Circuit so that the court can discharge its duty and evaluate the questions presented
on appeal in the first instance.

Respectfully Submitted,

This

Everett Tripodis,
Petitioner, Pro Se

23

day of

, 2021.

